<html>
<title> - NOMINATION HEARING: STEPHEN CENSKY TO BE DEPUTY SECRETARY OF AGRICULTURE, AND TED MCKINNEY TO BE UNDER SECRETARY OF AGRICULTURE FOR TRADE AND FOREIGN AGRICULTURAL AFFAIRS</title>
<body><pre>[Senate Hearing 115-599]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-599

                          NOMINATION HEARING:
                      STEPHEN CENSKY TO BE DEPUTY
                       SECRETARY OF AGRICULTURE,
                      AND TED MCKINNEY TO BE UNDER
                        SECRETARY OF AGRICULTURE
                   FOR TRADE AND FOREIGN AGRICULTURAL
                                AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                           SEPTEMBER 19, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.govinfo.gov/
       
                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
31-156 PDF                 WASHINGTON : 2019




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                DaNita M. Murray, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel
               
               
               
               

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination Hearing: Stephen Censky to be Deputy Secretary of 
  Agriculture, and Ted Mckinney to be Under Secretary of 
  Agriculture for Trade and Foreign Agricultural Affairs.........     1

                              ----------                              

                      Tuesday, September 19, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3
Donnelly, Hon. Joe, U.S. Senator from the State of Indiana.......     3
Thune, Hon. John, U.S. Senator from the State of South Dakota....     5

                                Panel I

Censky, Stephen, of Missouri, to be Deputy Secretary of 
  Agriculture....................................................     7
McKinney, Ted, of Indiana, to be Under Secretary of Agriculture 
  for Trade and Foreign Agricultural Affairs.....................     9
                              ----------                              

                                APPENDIX

Prepared Statements:
    Censky, Stephen..............................................    22
    McKinney, Ted................................................    28
Document(s) Submitted for the Record:
    5-day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Stephen Censky........    34
    5-day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Ted McKinney..........    62
Question and Answer:
Censky, Stephen:
    Written response to questions from Hon. Pat Roberts..........    90
    Written response to questions from Hon. Debbie Stabenow......    93
    Written response to questions from Hon. John Thune...........   105
    Written response to questions from Hon. Steve Daines.........   107
    Written response to questions from Hon. Sherrod Brown........   108
    Written response to questions from Hon. Amy Klobuchar........   109
    Written response to questions from Hon. Michael Bennet.......   110
    Written response to questions from Hon. Kirsten Gillibrand...   112
    Written response to questions from Hon. Robert Casey, Jr.....   114
McKinney, Ted:
    Written response to questions from Hon. Pat Roberts..........   116
    Written response to questions from Hon. Debbie Stabenow......   118
    Written response to questions from Hon. John Thune...........   127
    Written response to questions from Hon. Steve Daines.........   128
    Written response to questions from Hon. Sherrod Brown........   129
    Written response to questions from Hon. Michael Bennet.......   130
    Written response to questions from Hon. Kirsten Gillibrand...   131
    Written response to questions from Hon. Robert Casey, Jr.....   133


 
                          NOMINATION HEARING:
         STEPHEN CENSKY TO BE DEPUTY SECRETARY OF AGRICULTURE,
         AND TED MCKINNEY TO BE UNDER SECRETARY OF AGRICULTURE
               FOR TRADE AND FOREIGN AGRICULTURAL AFFAIRS

                              ----------                              


                      Tuesday, September 19, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:44 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Senators Roberts, Boozman, Ernst, Grassley, Thune, 
Stabenow, Brown, Klobuchar, Bennet, Gillibrand, Donnelly, 
Heitkamp, Casey, and Van Hollen.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. I call this hearing of the Senate 
Agriculture, Nutrition, and Forestry Committee to order. I 
welcome my colleagues this morning as we consider the 
nominations of Stephen Censky, to be the Deputy Secretary of 
Agriculture, and Ted McKinney, to be the Under Secretary of 
Agriculture for Trade and Foreign Agricultural Affairs.
    The U.S. Department of Agriculture is made up of 29 
agencies and offices. It employs nearly 100,000 men and women 
who work in all 50 States and all around the globe. The 
Department provides leadership on food, agriculture, natural 
resources, rural development, nutrition, scientific research, 
and related issues that impact Americans each and every day.
    Secretary Perdue and his team have hit the ground running 
to keep the Department working on behalf of the Nation's 
farmers, ranchers, and other rural stakeholders. We need to get 
his team officially on board. The Secretary is with us this 
morning. Mr. Secretary, if you would stand for a moment, I 
would appreciate it. Thank you for the job that you are doing.
    [Applause.]
    Chairman Roberts. Now, the Deputy Secretary of Agriculture 
is the second-highest-ranking official at the U.S. Department 
of Agriculture appointed by the President with the advice and 
consent of the Senate. More importantly, he becomes the Acting 
Secretary if the Secretary is unable to perform the duties of 
his office. That is not going to happen.
    The position also coordinates day-to-day operations within 
the Department and efforts across agencies. The Deputy 
Secretary is tasked with implementing the departmental mission 
of fostering strong rural communities and creating new 
agriculture markets. The Deputy Secretary receives input from 
outside the agency and stays up-to-date on issues and trends in 
the agriculture arena.
    The nominee for this role, Steve Censky, grew up on a 
soybean, corn, and diversified livestock farm near Jackson, 
Minnesota. I am sorry. I think probably I will turn that over 
to the distinguished Senator from Minnesota.
    [Laughter.]
    Senator Klobuchar. Go ahead.
    Chairman Roberts. No, please. I insist.
    Senator Klobuchar. We are just always happy to have a 
Minnesotan in a position of such importance, so thank you, Mr. 
Chairman.
    Chairman Roberts. I will get into the details after that 
introduction, and I thank the Senator.
    He began his career working as a legislative assistant for 
Senator Jim Abdnor. Later, Steve served at the U.S. Department 
of Agriculture during both the Reagan and the Bush 
administrations. More recently, he has served as the American 
Soybean Association's chief executive officer. Steve and his 
wife, Carmen, reside in suburban St. Louis, have two daughters 
who are in college.
    Steve, we welcome you to the Ag Committee.
    The position of Under Secretary for Trade and Foreign 
Agricultural Affairs was established by this Committee with 
strong bipartisan support in the 2014 farm bill. It is designed 
to provide singular focus on trade at the Department and to 
foster more effective coordination of trade policies all across 
our USDA agencies. In addition, it will bring high-level 
representation to key trade negotiations, foreign officials, 
and within the Executive Branch.
    Secretary Perdue moved quickly during his first month at 
the Department to follow the direction of the Congress and 
establish this important position. The new Trade and Foreign 
Agricultural Affairs mission area will include the Foreign 
Agricultural Service, which deals with international markets, 
and the U.S. Codex Office, which is part of an interagency and 
international partnership that develops international 
governmental and nongovernmental food standards.
    If confirmed, Ted McKinney would be the first person to 
officially lead this mission, and his background offers a range 
of experience for him to do exactly that job. He grew up on a 
family grain and livestock form in Tipton, Indiana. He is 
currently the Director of the Indiana State Department of 
Agriculture. Previously, Ted has worked with Dow AgroSciences 
and with Elanco.
    I am going to yield to the distinguished Senator from 
Indiana for any remarks he might want to make at this 
particular time.

STATEMENT OF HON. JOE DONNELLY, U.S. SENATOR FROM THE STATE OF 
                            INDIANA

    Senator Donnelly. Thank you, Mr. Chairman. I would like to 
quickly welcome to the Committee my friend, Ted McKinney, and 
his whole family. Ted and I have gotten to know each other 
really well over the past years, and I have enjoyed being 
partners advocating on behalf of Hoosier farmers with Ted.
    As you indicated, Ted comes from a farm in Tipton, Indiana, 
and has strong roots in agriculture. He is a hard worker. He is 
dedicated to agriculture. He is going to do a terrific job in 
this position and work really, really hard to help American 
farmers all over the world.
    So to the family, thank you for your sacrifice and lending 
Ted to us during this time. To Ted, thanks for your service. We 
have a lot of work for you to do, my friend.
    Thank you, Mr. Chairman.
    Chairman Roberts. Good luck with the dentist.
    Senator Donnelly. Thank you.
    Chairman Roberts. All of this gives Ted firsthand knowledge 
of potential trade issues in the row crop as well as the 
livestock sectors. He and his wife, Julie, have three children 
and four grandchildren. Welcome to the Ag Committee, sir.
    Earlier this year, the Committee moved to confirm Secretary 
Perdue in a strong bipartisan fashion, and we have successfully 
moved several nominations to the Commodity Futures Trading 
Commission. We look forward to considering these nominations in 
the same fashion. Today is an important step in that process. 
Again, I thank the nominees for being here today. I look 
forward to your testimony.
    I now turn to my colleague Ranking Member Stabenow for her 
opening remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Thank you very much, Mr. Chairman, and 
welcome, Secretary. We are happy to have you with us at any 
meeting. I am really pleased that we are here to consider two 
very important USDA nominees, as the Chairman has indicated. I 
would like to congratulate Mr. Censky and Mr. McKinney and 
welcome your families here today.
    USDA must be a forceful advocate for our farmers and 
ranchers. I know you share that feeling. USDA also plays a role 
in protecting our land and water, standing up for our small 
towns and rural communities, and ensuring that all families 
have enough nutritious food to eat.
    We need strong leaders who understand the vital role USDA 
plays in the lives of every American. In Michigan, agriculture 
is our second largest industry. It is supporting one in four 
jobs, and we are very proud of that.
    The farmers, families, and rural communities in my State 
deserve to have experienced and impartial leaders who will 
always have their back.
    Mr. Censky and Mr. McKinney, both of you have had 
distinguished careers in agriculture. It is clear that you 
share a deep-rooted commitment to our farmers and those who 
call rural America home.
    Mr. Censky, you have held an impressive tenure at the 
American Soybean Association as a strong advocate and leader 
for one of our country's top crops. Your reputation as a steady 
hand will be especially useful as our farmers struggle with low 
prices and USDA faces tight budgets and a daunting 
reorganization.
    Communities in Michigan and across the country deserve a 
high level of service from the USDA, and we look forward to 
working with you to ensure that it continues.
    The Deputy Secretary traditionally serves as the Chief 
Operating Officer of the USDA. In this role you will need to 
ensure that none of the Department's diverse roles or critical 
missions are forgotten. This responsibility is one of the most 
important and likely the most challenging. I hope you will 
consider this Committee a partner in that task.
    Mr. McKinney, you are no stranger to agriculture either, 
serving as the Director of the Indiana State Department of 
Agriculture. As a neighbor to Michigan, you know that 
agriculture is critical to both of our States economics. You 
also know that our farmers need consistent access to markets 
abroad in order to sell their products.
    As the administration reexamines our trade agreements, 
producers in my State are concerned that agriculture could lose 
important trading partners. For example, as we have talked 
about, Canada and Mexico import many Michigan-grown 
commodities, including corn, soybeans, dairy, and apples. If 
confirmed, Mr. McKinney, it is important that you be a strong 
advocate for agriculture within the administration broadly. It 
is vitally important that any NAFTA reorganization first ``does 
no harm'' to Michigan agriculture and our farmers and ranchers 
across the country. If the administration chooses to reexamine 
other trade agreements, your voice will be essential in making 
sure that agriculture is not left behind.
    I also want to underscore the important role that both of 
you will play in the budget process, and the appropriations 
process as well. In President Trump's first budget proposal, 
the administration recommended completely eliminating funding 
for many important programs, including areas that the Under 
Secretary of Trade would oversee. The budget would eliminate 
agricultural export programs, which support hundreds of 
thousands of jobs on and off the farm. Many of these jobs are 
in Michigan.
    If confirmed, it is vitally important that both of you 
advocate for our farmers and families and fight back against 
any proposed additional cuts.
    I am sure you both share my frustration that crucial 
leadership positions at the Department have been vacant since 
the beginning of the year. During the Trump administration we 
have seen historic delays in receiving nominees from the White 
House. I am glad to see that USDA nominations are beginning to 
trickle in, but there is still a long way to go.
    Mr. Chairman, I was pleased to work with you to quickly 
confirm our new Agriculture Secretary, Sonny Perdue, after he 
was finally nominated. But he cannot singlehandedly run the 
Department, which is why we are here today to give him support. 
Our farmers and our families desperately need a fully 
functioning USDA, and USDA needs qualified leadership to carry 
out its duties.
    So, Mr. Chairman, I look forward to working with you, as we 
have continued to do on a bipartisan basis, to move qualified 
nominees through the process as quickly as possible and give 
the Secretary his full team.
    Thank you.
    Chairman Roberts. I thank the Senator.
    I now welcome our panel of nominees this morning, but 
before that, I see that both nominees have numerous family and 
friends in the audience to share in this special occasion. Let 
me welcome all of you to the Ag Committee, if you would stand, 
and thank you for being here. Please.
    [Applause.]
    Chairman Roberts. Good-looking families.
    For our first nominee, I do now turn to Senator Thune, and 
as Chair I take unique leeway in recognizing Coop to introduce 
Steve Censky. I might add that only Senator Thune and I know 
what ``Coop'' means.
    Senator Stabenow. I actually know, too.
    Chairman Roberts. You actually know, too?
    [Laughter.]
    Chairman Roberts. Would you like to share that knowledge?
    Senator Stabenow. No.
    Chairman Roberts. Coop?

 STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE STATE OF 
                          SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and for the longest 
time, only you knew what that meant. But you have explained to 
me now.
    Chairman Roberts. It was Gary Cooper. I know half the 
audience does not even know who Gary Cooper is, but that is 
beside the point.
    Senator Thune. It was before my time, too.
    [Laughter.]
    Senator Thune. But I understand----
    Chairman Roberts. You did not have to add that.
    [Laughter.]
    Senator Thune. I understand I should be flattered, so I am. 
But, Mr. Chairman and Ranking Member Stabenow, I want to say 
that it is with great pleasure that I get to introduce to you 
and to this Committee Steve Censky, who is nominated for the 
number two position, Deputy Secretary, at USDA. I know that my 
colleague Senator Klobuchar will claim him because he is a 
Minnesotan, but like so many people from western Minnesota, he 
saw the value of an education from South Dakota State 
University.
    [Laughter.]
    Senator Thune. Go Jackrabbits.
    But Steve and I go back to the mid-1980s when we both 
served on the staff of South Dakota Senator Jim Abdnor, and I 
am sure that more than 30 years ago, as staff in the U.S. 
Senate, we would not have imagined that we would both be here 
again today and both very engaged in U.S. agricultural policy. 
But I will tell members of the Committee that Steve and I sat 
across from each other in our Senate office, and I always 
watched with great interest how he handled what was a very 
difficult economic time in agriculture, a time of great crisis, 
with great patience, diplomacy, empathy, and knowledge, and 
helped shape policies that made agriculture at that time more 
survivable for our farmers and ranchers in South Dakota and 
across the country. That was a difficult time, and these are 
difficult times on the farm, Mr. Chairman, and so in my 
opinion, Steve could not be a better choice for Deputy 
Secretary at USDA as his entire background has been focused on 
so many diverse areas of the agriculture industry.
    Growing up on a farm in southwestern Minnesota, Steve later 
graduated from South Dakota State University, as I mentioned, 
with a general agriculture and animal science degree, received 
a postgraduate degree from the University of Melbourne. He is 
no stranger to USDA as he has served at the Ag Marketing 
Service, the International Affairs and Commodity Programs Under 
Secretary Office, and as Foreign Agricultural Service 
Administrator. Most recently, as has been mentioned, Steve has 
served as the CEO of the American Soybean Association beginning 
in 1996 to the present.
    Mr. Chairman, my comfort level in not only writing the next 
farm bill but in that farm bill being successfully implemented 
by USDA is much greater with Steve partnering with Secretary 
Perdue in leadership at USDA. Sonny Perdue in just a few months 
as USDA Secretary has proven that he has the leadership skills 
to face the challenges of today's agriculture, and with Steve 
Censky at his side, USDA will be even more prepared to provide 
this Committee with the assistance we need in writing the next 
farm bill, as well as covering the broad scope of research, 
trade, and regulatory issues facing U.S. agriculture.
    Mr. Chairman, I am very proud today to not only introduce 
but to strongly support Steve Censky as the next Deputy 
Secretary of USDA. Agriculture has not just been Steve's 
profession. It has been his passion and way of life from his 
childhood on, and I can think of no one better to work at this 
level of USDA for the farmers and ranchers of this country and 
to help me support my home State of South Dakota's number one 
industry--agriculture.
    Mr. Chairman, I yield back, and thank you.
    Chairman Roberts. I thank the Senator.
    For our other nominee, we have heard from Senator Donnelly 
with regards to Ted McKinney, but I would like to indicate that 
he is currently Director of the Indiana State Department of 
Agriculture, serving from 2014 to the present under then-
Governor Mike Pence and now Governor Eric Holcomb. Mr. McKinney 
grew up on a family grain and livestock farm in Tipton, 
Indiana. He also worked for 19 years with Dow AgroSciences and 
14 years with Elanco, a subsidiary of Eli Lilly and Company, 
where he was director of global corporate affairs. His industry 
and civic involvements include the National FFA Conventions 
Local Organizing Committee, Indiana State Fair Commission, 
International Food Information Council, the U.S. Meat Export 
Federation, International Federation of Animal Health, and the 
Purdue Dean of Agriculture Advisory Committee. Mr. McKinney is 
a graduate of Purdue University, where he earned a B.S. in 
agricultural economics, home of the Fighting Boilermakers. Mr. 
McKinney and his wife have three children and four 
grandchildren.
    As is the tradition and custom of the Committee for 
nominees and witnesses who are to provide testimony, I need to 
administer the oath. If both of you could please stand and 
raise your right hand. First, do you swear that the testimony 
you are about to present is the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Censky. I do.
    Mr. McKinney. I do.
    Chairman Roberts. Second, do you agree, if confirmed, you 
will appear before any duly constituted committee of Congress 
if asked to appear?
    Mr. Censky. I do.
    Mr. McKinney. I do.
    Chairman Roberts. Thank you. We look forward to your 
testimony. Stephen?

   TESTIMONY OF STEPHEN L. CENSKY, OF MISSOURI, TO BE DEPUTY 
                    SECRETARY OF AGRICULTURE

    Mr. Censky. Mr. Chairman and members of the Committee, 
thank you very much for this opportunity to appear before you 
today as the President's nominee to be Deputy Secretary of 
Agriculture. I am deeply humbled by this opportunity to make a 
positive difference for rural America.
    I also want to thank my former colleague from Senator Jim 
Abdnor's office--and now your colleague--Senator John Thune for 
that very kind introduction. Senator Abdnor taught both John 
and me the value that public service can have to positively 
impact our Nation.
    With me today is my wife of 25 years and my best friend, 
Carmen, along with my daughters Abigail and Emma. They are my 
biggest champions and sources of sound advice, so thank you 
very much for your support.
    I would also like to recognize my sister and her husband, 
my mother-and father-in-law, and my sister-in-law and niece who 
always give me love and support. Finally, I would like to 
acknowledge friends, colleagues, and American Soybean 
Association leaders, and also recognize Secretary Perdue. What 
a nice surprise and treat it is, and it really shows great 
support to have you here, Mr. Secretary. So thank you very 
much. As they might say in Sonny Perdue's neck of the woods 
rather than mine, I appreciate ``all y'all's'' support.
    [Laughter.]
    Mr. Censky. I am proud to say that I was born on a farm 
near Jackson, Minnesota. My father, Harry, was a farmer. He 
grew soybeans, corn, and alfalfa, and like many farms of the 
era, also had a small diversified livestock operation. My 
mother, Gladys, worked as a reporter for the local newspaper 
and always took the greatest joy in writing stories about rural 
life. My sister, Jolene, and I grew up doing chores every day 
and entering all manner of projects in both 4-H and FFA. My mom 
in particular was a strong Democrat, and although she might be 
a bit chagrined that I continue to work in Republican 
administrations, I know that both my parents are looking down 
and smiling today.
    In fact, the bipartisan approach that this Committee has 
taken to the issues facing farmers, ranchers, and consumers is 
something about which all of you should feel very proud. As a 
leader of the American Soybean Association for the last 23 
years, we too worked on a bipartisan basis, and I saw the value 
that approach has. If confirmed, you have my commitment to be 
open and responsive to all points of view.
    As has been mentioned, after my time with Senator Abdnor, I 
worked in the Reagan administration as assistant to the 
Administrator of the Agriculture Marketing Service. Then in the 
George H.W. Bush administration, I served as the assistant to 
the Under Secretary of International Affairs and Commodity 
Programs. In that capacity I assisted in managing our farm and 
trade programs.
    We also coordinated the administration's proposals for the 
1990 farm bill. Secretary Perdue has already pledged to make 
the resources of the Department available to assist Congress as 
you write and then pass the 2018 farm bill, and I look forward 
to assisting Secretary Perdue and all of you in that important 
work.
    I later served as Associate Administrator and then Acting 
Administrator of the Foreign Agricultural Service, again, in 
the George H.W. Bush administration. There I managed and 
directed that agency's export programs and involvement in trade 
negotiations. I know that farmers and ranchers absolutely 
depend on trade in order to be profitable.
    Like you have already seen from Secretary Perdue over these 
past number of months, I promise to be a strong advocate for 
fair trade for America's farmers and ranchers.
    I have been asked whether there are any specific goals that 
I would like to advance if confirmed. At the risk of omitting 
other worthy goals, I have identified three areas that I think 
are very important to current but, perhaps more importantly, 
future generations.
    One, diversification of markets. This includes expanding 
foreign trade and promotion of local and regional food markets. 
In addition, diversification of crops through research, 
extension, and crop insurance coverage.
    Two, preparation for and adaption to changing weather and 
climate. Our agricultural production systems and forests truly 
are on the front line of impact by changes in weather and 
climate. I believe USDA has an inherent responsibility to help 
our farmers, ranchers, and forests become more resilient.
    Three, expansion of broadband to rural America. Broadband 
can be transformative. From precision agriculture that allows 
our farmers to farm more sustainably to promotion of rural 
development and jobs, America's rural areas need broadband.
    Mr. Chairman and members of the Committee, thank you for 
your consideration of my nomination to be Deputy Secretary of 
Agriculture. I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Censky can be found on page 
22 in the appendix.]
    Chairman Roberts. I thank you for your very timely 
comments.
    Mr. McKinney.

TESTIMONY OF TED McKINNEY, OF INDIANA, TO BE UNDER SECRETARY OF 
     AGRICULTURE FOR TRADE AND FOREIGN AGRICULTURAL AFFAIRS

    Mr. McKinney. Thank you, Mr. Chairman and Ranking Member 
Stabenow. It is an honor and a pleasure to be here, and I want 
to thank all members of the Senate Ag, Nutrition, and Forestry 
Committee for the time here today. I too want to thank the 
President and Secretary Perdue for this nomination and for your 
presence here today, Mr. Secretary. This is an honor, and thank 
you.
    I am also honored to be apparently the first to be 
nominated for this remade or this newly made position that you 
all created in the 2014 farm bill as Under Secretary for Trade 
and Foreign Agricultural Affairs.
    I know he had to depart, but I also want to say thank you 
publicly to my very good friend Senator Joe Donnelly. He is a 
great friend. We have collaborated on numerous activities, and 
I am just very grateful for his support.
    Before I proceed, I too would like to introduce my family. 
I know there was the introduction, but just a little bit more, 
if you do not mind.
    First, off to my left and your right is my wife of 35 
years, Julie. Julie just retired in June of this year after 19 
years as a second grade school teacher, so she has done God's 
work as far as I am concerned.
    Then our son, Brad, and his wife, Kristie, who live nearby 
in Falls Church; daughter Brooke from just north of Cincinnati, 
her husband and brood of three are remaining home; and then our 
daughter Caroline, from Indianapolis. So love you all. Thank 
you all for being here. We would have had the grandchildren, 
but three of them are under age 4, and it would have created 
perhaps some havoc.
    I suspect many of you know a little bit about me, but I 
would like to extract just a few things that I think are most 
relevant to this newly created position.
    First, my roots are absolutely then and still are with the 
farm in north-central Indiana. It has been there for six 
generations, and two of the farms are now century-plus farms. 
My twin brother and his wife, and my mom and dad, each age 85, 
continue to manage and grow a diversified farm. Now, it is an 
``I'' State, so, yes, there is plenty of soy, corn, 
occasionally wheat and livestock. But over the last 40 years, 
we have continued to add to that with value-added operations 
like seed sales, seed production, custom spraying, and now 
Precision Planting technologies. So my formative years were 
there, and they still are.
    As I grew up, not unlike you, I was very active and still 
am today with 4-H and FFA. I was a 10-year 4-H member, a State 
FFA officer. Then after going to Purdue for 4 wonderful years, 
graduating in ag econ, I joined, as you said, Mr. Chairman, the 
Ag Division of Eli Lilly and Company where I spent 28 years in 
the plant science world with seeds, crop protection products, 
more recently biotechnology traits. It was a wonderful, 
wonderful experience.
    The last thing on my business bucket list was to lead a 
global corporate affairs group, and so I moved on back to 
Elanco--there were some transitions--and led the global 
corporate affairs group for Elanco for 4 wonderful years. So 
the bottom line there is 28 wonderful years with one leg 
steeped in plant science, seeds, and crops, and then 4 
wonderful years steeped in livestock, and I think that has 
helped me. In all of those jobs, there was a great deal of 
interface on international markets and trade missions and all 
things exports.
    In early 2014, then-Governor Pence invited me to join the 
Department of Agriculture to lead as its director, and what a 
trip it has been. I think relative to this new opportunity that 
I am being considered for is that it opened up a lot more of 
the interface with USDA, from programs like MAP and FMD 
funding, to trade missions, to all kinds of policy discussions. 
So it was very valuable to have the private sector experience, 
but, oh, my, it was also great to have had 4 good years in the 
public sector where I continue now.
    I would add one other things that I think is very germane 
to this new opportunity. It was about 2-1/2 years ago that 
Governor Pence asked if I would lead the ag economic 
development for the State, so that means growing existing 
businesses and recruiting some from other places. It has been a 
boon. We have grown substantially our agribusiness sector, and 
so I hope that has some direct relevance to this opportunity.
    Now, as for this new opportunity, I want you to know that I 
have read and I believe entirely in the mission of the Foreign 
Ag Service. I will read it: ``To link U.S. agriculture to the 
world to enhance export opportunities and global food 
security.'' Whoever wrote that I think got it right on. I agree 
with it. I anticipate investing significant time in many 
foreign countries, building trust, opening doors for farmers 
and processors, removing trade barriers, and otherwise being 
what I hope to be known as a high trust and high delivery 
person of our ag portfolio.
    I want to make a comment about one area I think is very, 
very important. Not unlike you, I have experienced firsthand 
the issues of nonscientific trade barriers. Many times, but not 
always, those are sanitary-phytosanitary issues. Too often, we 
play by the rules, but many foreign countries do not. So 
however we might have tackled that with all our friends in the 
other agencies that have a stake in international relations, I 
believe this is one we have got to take on. There cannot be a 
double standard.
    Finally, I will just say that as to where we might place 
our priorities, a question that many of you asked as we met one 
on one, well, we have many countries that we have got to pay 
attention to, and all are very critical to our farmers and our 
processors, particularly in these times of relatively low 
commodity prices. I will just say I think you always finish 
what you start, so I think NAFTA has to be right at the fore. 
But right on its heels, dare I say even simultaneously, are all 
the other very critical trade partners that we have around the 
world.
    In conclusion, I offer three important points, at least to 
me, and I think I want to share them with you.
    First, I have to applaud again this Committee for creating 
this stand-alone position that we are now seeing come to 
fruition and Secretary Perdue for making it happen. I believe 
in it, and I have said so even times prior to this. It is 
important and it is time for our farmers.
    Secondly, I promise the very best of teamwork, not only 
within USDA, with my long-time friend Deputy Secretary Nominee 
Censky, Secretary Perdue, and those who might come along, but 
also with this Committee and other constituencies.
    Third, American agriculture will have my undivided 
attention and passion. I will be a happy warrior to chase these 
exports, grow our trust, and build those relations.
    Thank you all for this time. I am honored to be with you 
today.
    [The prepared statement of Mr. McKinney can be found on 
page 28 in the appendix.]
    Chairman Roberts. We now turn to questions of the 
witnesses.
    Mr. Censky, as you know, current farm bill programs expire 
at the end of 2018. We have held numerous farm bill hearings 
and had comments from across rural America. The distinguished 
Ranking Member has done so as well. We had hearings in Kansas 
and Michigan. I personally went to Montana and to Alabama. The 
number one issue of concern--well, there are two: one is crop 
insurance, the other is trade.
    So my question to you is: Can I have your commitment to 
work with the Committee to craft a farm bill that maintains the 
farm safety net without cutting crop insurance? Your answer is 
yes.
    [Laughter.]
    Mr. Censky. Yes, Mr. Chairman.
    Chairman Roberts. Thank you.
    Mr. Censky. We look forward to working with you, and 
clearly, as you have stated so well, my experience in talking 
to farmers across the country is that crop insurance is really 
the most important element of their risk management program, 
and so I very much look forward to working with the Committee 
and the administration to make sure that we have an effective 
and viable crop insurance program.
    Chairman Roberts. You have extensive knowledge of the tough 
times, and I hope everybody in this Committee room understands 
that we are in a rough patch with regards to what all of our 
producers in agriculture are facing. What do you see as the 
greatest challenge facing the Department? There is an add-on 
here. With that in mind, how do you plan on helping to convey 
those challenges to the White House, more especially Congress, 
and other Federal agencies?
    Mr. Censky. I do think that we have the best agriculture in 
the world. We have the best producers. We have innovative 
companies that are assisting. We have the diversity of 
agriculture production systems. But I think our challenge is 
always going to be on finding those new market opportunities, 
whether those are at home or abroad. I see that as one of the 
big roles as the Department. Mr. McKinney, if confirmed, is 
going to be a lead advocate in assisting in that. I look 
forward to assisting Secretary Perdue in that and making sure 
that we have diverse markets across the programs for all of our 
products.
    Chairman Roberts. I appreciate that.
    Mr. McKinney, the U.S. Trade Representative, the Department 
of Commerce, and the newly created National Trade Council are 
all contributing to decisions made on U.S. trade policy. As the 
top trade voice now at the Department of Agriculture--I know 
you have described yourself as a ``happy warrior,'' and I agree 
with that--how will you work with other Federal agencies that 
hold responsibilities over U.S. trade functions? How do you 
plan to ensure that agriculture is strongly represented in 
international trade policy?
    Mr. McKinney. Sure, thank you. That is a very good 
question. The first thing I would say is get it right at home, 
so I am going to work with future, hopefully approved Deputy 
Secretary Censky and Secretary Perdue to make sure we have our 
talking points, our house in order. But to your point about 
teamwork, all my life I have practiced teamwork. In the private 
sector I have managed sideways far, far more than I have up or 
down to subordinates or superiors. I think the same skill sets 
will apply as we work with the many, many partners. You 
mentioned USTR, State, Commerce, and others. I think that is 
just what we are going to have to do.
    I think there is something that comes with the position you 
have created, a stand-alone Under Secretary for Trade, and I 
hope that gets us something. I hope it gets us a lot, that they 
will look first to us. But I think we have to earn that trust, 
and that is what I intend to do with a passion.
    Chairman Roberts. As we progress in a renegotiation--I am 
happy to use that word instead of ``termination''--with regards 
to NAFTA, the agricultural industry has made it clear the 
number one priority is to ``do no harm''. NAFTA has widely been 
viewed as successful for agriculture in all three countries, 
and Canada and Mexico are two of the top three markets for U.S. 
agricultural products. What do you view as the appropriate 
measure of ``doing no harm'' to agriculture when in NAFTA or 
other existing agreements like the Free Trade Agreement with 
Korea or the Pacific Rim countries? I hasten to add that the 
words ``renegotiate,'' ``modernization,'' ``improve,'' ``fix'' 
are better descriptions, I think, as opposed to ``terminate.''
    Mr. McKinney. Is that directed at me, Mr. Chairman?
    Chairman Roberts. Yes. Sorry.
    Mr. McKinney. Absolutely. Well, for sure, do no harm in my 
view means we sustain the baseline. I will not be satisfied 
with that. You said yourself that we are facing a tough patch 
in terms of many of our commodities, and my goal is to lift 
those up ever higher. So I think do no harm, as I interpret it, 
would be to hold that baseline and look for opportunities for 
growth across all of our American ag sector.
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. Welcome again.
    First, let me just reiterate what we know. We have received 
over 500 farm, conservation, nutrition, and rural development 
groups, including the American Soybean Association, and we are 
so grateful, Mr. Censky, for your leadership there, arguing 
against any cuts to the farm bill, certainly including crop 
insurance. I want to reiterate again that I think the entire 
agriculture and farm and food community understands what we 
need to do to move forward on the budget, and I share that as 
well.
    Within the context of that, though, you and I have had the 
opportunity to talk, and certainly the Chairman and I have 
talked with the Secretary, along with others about the fact 
that when we look at the safety net that we created in the 2014 
farm bill, there was one area in particular that did not hit 
the mark, and that is with our dairy farmers. There are other 
areas we may need to fine-tune, but there are some significant 
issues with the dairy safety net that we need to fix. We are 
working on addressing that as quickly as possible. I appreciate 
the American Farm Bureau, Farmers Union, National Milk, and a 
whole range of folks that are very, very supportive of this. 
Specifically, stakeholders want to improve the dairy insurance 
options by offering insurance as an agricultural commodity and 
to avoid artificial limits on dairy insurance.
    When we look at crop insurance, it is something not 
available to dairy farmers right now, and I do not see why it 
should not be. So if confirmed, Mr. Censky, can I count on your 
support within the Department and the White House to advocate 
for such an improvement to the safety net for dairy farmers?
    Mr. Censky. Yes, Senator, thank you. Thanks for the 
opportunity to meet with you and to discuss this issue. 
Clearly, we know that the farm bill is important work, and we 
do know that there are areas that do need to be improved from 
the last farm bill. Some areas are just going to be tweaked. 
Some others are in need of some more significant improvements, 
and the dairy title is one of those. Of course, we are well 
aware of the concerns of the cotton growers and others as well 
to address those.
    Certainly I look forward to working, if confirmed, with 
Secretary Perdue and taking a look at those options, working 
with this Committee and working with Congress to see how we can 
utilize the Department's programs and the authorities that the 
Department has to provide a better safety net for our dairy 
producers, among others.
    Senator Stabenow. Thanks very much.
    Mr. McKinney, we have all said that our farmers and 
ranchers can compete with anybody as long as there is a level 
playing field, and I really believe that to be true. 
Unfortunately, for many of the commodities we produce in 
Michigan, whether it is dairy, sugar, cherries or asparagus, we 
have seen trading partners that did not always abide by their 
commitments. If you are confirmed, how will you work across the 
Government to make enforcing our trade agreements a priority? 
How will you press countries that are violating their trade 
commitments to change their unfair trade practices?
    Mr. McKinney. Sure, thank you, Senator Stabenow. That is a 
very good point, and in my role in Indiana, I too have seen 
that kind of activity, I would say notably with dairy.
    I think the first thing is I am a big believer in the Covey 
principles, and you seek first to understand. I want to meet 
with those who are affected to get every different angle, every 
different potential solution, understand the problem fully. I 
think I do, but I do not ever want to presume that. After that, 
I think we sit down with a team, an A team across the different 
agencies that would interface with these other countries. You 
mentioned Canada, and so I think clearly USTR, Commerce, State, 
and others who might have a role in that, and we would like to 
continue working with you because you have a voice and you have 
sources of information. But I think we have got to address 
that.
    My sense is that if there is a way we can address that more 
quickly than not, we should do that. But if we need to have to 
wait until the NAFTA modernization, we will do that. But we 
have to address that.
    You extended that to other crops, and that is where I think 
we can get into some specialty crop products which have 
different unique programs that we can lift up.
    Senator Stabenow. Great. Thank you very much. I look 
forward to working with you on that.
    Mr. Censky, I was very impressed with the three goals that 
you laid out in terms of your position and the Department, and 
I would underscore and agree with all of those as being 
incredibly important. But I was heartened to read in your 
testimony about helping farmers and ranchers and foresters 
adapt to the changing climate, and I could not agree more. 
Given that, can you share some more specifics about what 
programs are working well in helping our producers become more 
resilient and where we can be doing more? Because they are 
certainly on the front lines, as we see the intense weather 
patterns.
    Mr. Censky. Thank you, Senator, for that question. 
Absolutely, I do think we do need to utilize all the resources 
that the Department has to try to help our farmers and ranchers 
and foresters become resilient. Farmers and ranchers, as you 
well know, have faced climate and weather variability for 
thousands of years. I think we can utilize the Department's 
research programs to understand the trends that are happening, 
what pests might be emerging, to try to adapt our crops so that 
they can survive and are better in colder, hotter, wetter, 
drier climates, and we can utilize our research, our extension, 
as well as even our crop insurance coverage.
    Senator Stabenow. Thanks very much, Mr. Chairman.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair. Gentlemen, thank you 
for being here today, and congratulations on your nominations.
    The agricultural community is going through one of the 
toughest stretches that we have had since the 1980s, facing 
historically low commodity prices, battling drought and other 
natural disasters. In this challenging environment, it is 
imperative that we have a fully functioning USDA with all of 
those top positions filled, so thank you very much for coming 
forward and answering the questions that we have today.
    Mr. Censky, I would like to start with you. If confirmed 
for the role of Deputy Secretary, you will be working on much 
of the day-to-day operations of the Department, as we discussed 
in our meeting. One of the complaints I hear from my 
constituents as I am traveling around Iowa is how Federal 
agencies will often contradict each other and produce 
unnecessary regulations that can be confusing and actually 
impede investment.
    You mentioned in your testimony--and Senator Stabenow 
mentioned this as well--that one of your goals is to remove 
every obstacle and allow the men and women of America's 
agriculture to create jobs and prosper. So how do we go about 
breaking down those barriers between the agencies and make sure 
that the USDA is working hand in hand with EPA, FDA, so many of 
those other agencies? What are the priorities there? What 
agencies would you start with just to make sure that we are not 
contradicting each other within those agencies?
    Mr. Censky. Well, thank you very much, Senator, and thanks 
for that question and raising that important topic, and thanks 
for the opportunity to meet with you as well to discuss this 
and other topics.
    I do see the President, as you know, has announced a 
regulatory reform agenda. USDA is a key part of working as part 
of the administration's regulatory reform agenda. I look 
forward, if confirmed, to being down at the Department to 
assist the Secretary in that important work. I am aware, 
although I am not on the inside yet, I know from the outside 
and as I have been briefed, that there really are some good 
initiatives to try to make sure that our regulations are not 
standing in the way of farmers and ranchers and job creation by 
businesses to do what is necessary. I think some of that 
coordination is as well happening because it is an 
administration-wide effort. It is not just USDA that is working 
alone. USDA is working as part of the whole administration's 
team to take a look across agencies and across departments.
    Clearly, working with the Environmental Protection Agency 
is a key area that we need to do, but there are other agencies 
as well.
    Senator Ernst. Fantastic, and I am glad you mentioned that, 
too. It is a whole-of-administration effort, not just one 
department or another. I think with that approach, maybe we 
will be successful in that area. I truly hope so.
    Mr. McKinney, as the first person nominated to perform the 
important task and new role at USDA, you will set the precedent 
for how your office collaborates with the U.S. Trade 
Representative, the President's National Economic Council, and 
the National Trade Council. You have outlined your priorities 
quite well. I want to thank you for that. I just want to 
reiterate how important trade is for agriculture. You have 
heard it so many times over. You completely understand this. We 
want to make sure that you always have a seat at the table when 
we are negotiating trade deals with other countries, whether it 
is Japan, China, South Korea, et cetera. But I just want to 
thank you for that. I am really excited about your opportunity 
and how you will be able to help those within the ag community. 
So thank you very much for being here today.
    Mr. Censky, I do want to ask you one final question here 
before my time runs out. In your testimony you highlighted the 
importance of rural broadband technology, which is something 
that I hear a lot about from my constituents. Not only do they 
use that technology for precision farming but also for growing 
jobs in our rural communities. The President's budget request 
called for cuts to USDA's Office of Rural Development, so I 
just wanted to get your thoughts on how we strike a balance 
with a constrained budgetary environment, how do we proceed 
with some of the goals that we have through rural economic 
development?
    Mr. Censky. I agree, you raise a fair point that in any 
budget and at any time we do have to set priorities, and while 
I was not involved in developing the current budget proposal, I 
look forward to working with the Congress and making--if 
confirmed, implementing the program and the budget as 
authorized by Congress, but also in developing priorities for 
future years. Clearly, I think Secretary Perdue also has stated 
very clearly that broadband is transformative for rural areas. 
I could not agree more. I think that USDA does have a major 
role to play there as the administration develops its 
infrastructure initiative, and having broadband is part of the 
infrastructure initiative, as well as through USDA's own 
programs to make sure that we are doing all we can to promote 
broadband and make sure that it is there, to do that kind of 
rural development and job creation that rural America needs.
    Senator Ernst. Great. Thank you.
    Thank you, Mr. Chair.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you, Mr. Chair. I welcome both 
nominees, and I will note--I know Senator Thune is not here, 
but I will pass on to him--that there are a few notable people 
that moved the opposite way, from South Dakota to Minnesota, 
including someone named Hubert Humphrey. There we go.
    [Laughter.]
    Senator Klobuchar. You also, Mr. McKinney, I know, spent 
time outside of Mankato, which is where my husband grew up with 
five brothers, and so it is exciting to have both of you here, 
and especially with your knowledge of the Midwest. I am really 
excited about that, as well as your backgrounds, and I want to 
thank Secretary Perdue for his wise choices. So thank you very 
much.
    I thought I would start with some of the issues we have 
been having with avian flu and the like. Maybe I will start 
with you, Mr. McKinney. You know the issues. You and I 
discussed some of the trade issues when other countries close 
down their markets, even in the face of science that shows that 
the animals that we would like to export are perfectly safe. In 
2015, Minnesota lost almost 9 million turkeys as a result of 
avian flu. Since that time, despite the safety that is clearly 
there, we have been working to lift the export ban from China.
    What do you see as the next steps to officially reopening 
the Chinese market to U.S. poultry products?
    Mr. McKinney. Sure. Well, thank you very much, and I will 
just say that Julie and I enjoyed immensely our time in 
Mankato, and that is where our son was born. So love that.
    Your question is a very good one, and we experienced not 
quite the dramatic loss that you did in Minnesota with turkeys, 
but we had our own bout in southern Indiana. Just two comments.
    First, I think we have to acknowledge the quality of the 
Animal and Plant Health Inspection Service who I think have 
grown immensely in their quality and their ability to help 
address these issues. Clearly, it was done in a federalism 
format with States and Federals working together. But I think 
that is one of the best ways we address this.
    I will go further, though, because your question is how do 
we address some of the blockages that we are seeing, if I can 
use that phrase. Well, I think the regionalization concept is 
one that has worked and is working in several countries where 
they acknowledge that just because something is happening in 
one part of the U.S. but is not happening in the other part, 
that is a reason to completely shut off exports of those 
products or commodities from the United States. So I think that 
gives us more than a toehold to build upon.
    I think the rest is we have got to continue to use science 
and research to show that these--we can manage these diseases, 
and we have. We can stop them.
    Senator Klobuchar. Very good. Thank you very much. Mr. 
Censky, I will follow up with that a bit with you on the 
record, not right now, on a bill I am working on to strengthen 
animal disease prevention.
    But I wanted to move on to the renewable fuel standard, 
very important in my State. Can you talk about the importance 
of this standard? Will you commit to working with the EPA to 
ensure that the 2018 RVO targets are forward-looking and 
reflect the reality of advanced biofuel production?
    Mr. McKinney. Thank you, Senator, and I agree that the 
renewable fuel standard is very important to rural America and 
to our farmers. It is something that I am familiar with from my 
past work with the American Soybean Association and the 
importance there. I think we have heard strong support from the 
President, from Secretary Perdue, in support of the renewable 
fuel standard. I look forward, if confirmed, to be there and to 
be a champion for the appropriate levels there.
    Senator Klobuchar. Thank you. Thank you very much. As you 
know--and we can talk about this more later--we really do 
appreciate that work as well, but there are some changes that 
some of us would like to see on those RVO targets. But I 
appreciate your interest in working with us.
    Last question just on exports, trade agreements. Minnesota 
is the fourth largest ag exporting State in the Nation, 
accounting for more than one-third of our State's total 
exports. That is despite the fact that we have 18 Fortune 500 
companies that do a little bit of exporting. So it is very 
important to me. Our primary markets are China, Mexico, Japan, 
Canada, South Korea, and Taiwan.
    Mr. McKinney, could you just talk very briefly, in 30 
seconds here, how do you see the importance of access to these 
export markets?
    Mr. McKinney. Certainly. I will make this short and sweet. 
We have got to continue to have ``do no harm'' resonate, and I 
think that it is.
    Secondly, beyond that, we have got to lift up these 
exports, and that is why my intent is to find myself on an 
airplane seat, go out, build trust, and continue to open 
markets. I continue to be encouraged. We are moving from 7 to 9 
billion people, and the protein demand around the world is 
rising rather rapidly. So I think we catch that wave, but we 
have to earn that. I intend to do that.
    Senator Klobuchar. Very good. We just discussed China 
getting more ethanol, which would be great. I also just last 
want to mention that my mom taught second grade until she was 
70 years old, so she may have even stayed a little long. You 
look a little younger than that.
    [Laughter.]
    Senator Klobuchar. All right. Thank you very much. I 
appreciate it.
    Chairman Roberts. I thank the Senator.
    Senator Grassley?
    Senator Grassley. I thank Senator Klobuchar for bringing up 
the issue of biofuels, and I would just associate myself with 
her remarks, and thanks for your statement on it, the renewable 
fuel statement.
    I want to follow on that a little bit, because in your 
positions, I am sure some of you are going to be involved in 
interagency councils. We have so many of them. I assume you are 
going to be. So on the issue of biofuels, you will probably be 
having reason to have meetings with the Special Trade 
Representative, the Commerce Department, the Energy Department, 
the EPA as an example. For trade, one of the issues we have is 
with Brazil threatening to or maybe they have already put on 
import duties on ethanol. I would hope that you could be in a 
strong position to express to them that we need to fight that 
very, very hard. I am not asking you to--unless you disagree 
with me, I am not asking you to comment right now. That would 
be one place to start.
    I hope you all know the importance of E15 because we have 
reached the point where with E10 we do not have enough 
petroleum to mix much beyond E10. That is why the exports are 
very important. But, also, we are going to have a growing corn 
crop year after year, just like starting 10 years ago there has 
been a steady upturn in production. That is going to continue. 
So if we do not move to E15--so you are going to have 
opportunities within EPA and Energy to urge them not to stand 
in the way of it. I am sure you all know of the significant 
weight that the petroleum industry puts on the EPA in the past 
to curb whatever they can under existing law to stop them from 
doing that. They have been stopped by the D.C. Circuit Court of 
Appeals, some things that EPA had done in the past in regard to 
reducing the amount of renewable fuel standard requirements, 
that they do not have the authority to do that. So we have the 
law more on our side now than we did. But the extent to which 
you can be a spokesman for E15 with these different agencies is 
very, very important because your job in the Department of 
Agriculture will be to make the market forces work as much as 
they can from the standpoint that if we have overproduction, 
you are going to have lower prices; you are going to have an 
increase in support for farmers out of the taxpayers, and we 
ought to have the marketplace and the consumer benefit from 
that. So I hope that you will do those things.
    That is kind of an admonition to you. You can comment on it 
if you want to. But if you do not want to comment right now, I 
have got a couple questions. Okay.
    I want to ask Mr. McKinney, your position is a critical 
leadership role as we are in the midst of renegotiating both 
NAFTA and probably the Korean Free Trade Agreement. I do not 
think Korea has agreed to that, but we are trying to do that. 
Outside of the ever changing currency values, what would you 
say are the top two or three issues facing American exports 
around the world that you intend to focus on if you are 
confirmed?
    Mr. McKinney. Well, I cited one in my opening remarks, but 
let me elaborate. I think the nonscientific trade barriers is 
the largest, broadest description. Sanitary-phytosanitary would 
be a little bit more specific. I think they have been abused 
around the world. There is a double standard. We try very hard 
in the U.S. to subscribe to the WTO standards or any other 
standards that have been agreed to, and the reverse is not 
true, and I think it is time to call that out and address it 
for what it is and be firm about that. To enact that, it is 
going to have to be a collaboration across the many, many 
different agencies that deal with or touch international trade, 
but I think that is the one.
    The other thing that has not been mentioned much is the 
proposal to move Codex to my Department. I will tell you that I 
believe firmly we have to stay on solid grounds with science. 
It cannot be a political issue. That is a science-based issue. 
But we need a bit more clout to address what I think has been a 
failure over the last 10 years in the Codex process. You think 
about the developing countries around the world that rely on 
Codex as their EPA or FDA or USDA or whatever regulatory 
agency, and it has become politicized. Ten years ago or more, 
it was not that way. I think we have got to do our best--and I 
will have to look into it. I do not understand right now 
exactly the best way, but we will create a plan to somehow try 
to restore that on good grounds based on science, not on 
politics, because we are affecting people's lives around the 
world.
    Those would be two, Mr. Senator.
    Senator Grassley. Thank you, and I will yield, Mr. 
Chairman.
    Chairman Roberts. Thank you, Senator.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. McKinney, agriculture is Arkansas' number one industry 
and accounts for nearly a quarter of my State's economy. As you 
know, the farm economy is struggling right now with low 
commodity prices. One way we can lessen the economic pressure 
facing our farmers and ranchers is to open up new markets. Cuba 
represents an important opportunity for American agriculture. 
Cuba imports 80 percent of the food that it eats, and it is 
only 90 miles off the U.S. coast. Can you talk a little bit 
about your thoughts on opening up Cuba to agricultural trade?
    Mr. McKinney. Sure. Well, stated in the most general and 
broadest sense, I believe in free trade wherever it makes 
sense. I happen to know that there is still some debate on 
whether we go to Cuba. That is not a decision that I will make. 
But to the degree that we can work with, if nominated--if 
confirmed, Deputy Secretary Censky, Secretary Perdue, and all 
of you, we will pursue that if you will give us that 
permission.
    Senator Boozman. Mr. Censky, Mr. McKinney, since the end of 
World War II, American food aid programs have saved millions of 
people from malnourishment and starvation. My State is the 
largest rice-growing State in the country, and since 2007, over 
1 million metric tons of rice have been delivered in the form 
of global food assistance. This has been a win-win for U.S. 
farmers and those in need.
    Can you all talk a little bit about your views in regard to 
the importance of U.S. food aid, particularly now? We have 
several famines going on that, sadly, are man-made in their 
cause, but are as dire in consequence as any famine going back 
for many, many years.
    Mr. McKinney. I would be delighted to. It is a very good 
question, and it is one that I feel very personally. As a 
senior at Purdue University, I was very fortunate to have Dr. 
Don Paarlberg, who worked under the Eisenhower, Nixon, and Ford 
administrations, who wrote Public Law 480 as a professor, and 
that is when I learned the backdrop behind that. I sought to 
understand, and did.
    In my time in the private sector, not once but twice we had 
a cause, which was hunger, and felt it deeply, felt it very 
deeply. We have seen hunger, not just the developing world, 
which oftentimes is cited in photographs, but our neighbors in 
the Indianapolis area. So I am a deep believer in assistance 
that we can provide in that manner.
    I have not been asked about that. I am not yet confirmed, 
but I will assure you that, if confirmed, I will raise my voice 
within the proper channels to see if programs like that have 
merit. I think they do, and I will advocate for such. At the 
same time, I understand how to take orders, and you all will 
have a lot to say about funding and enacting of that. But am I 
a believer? I am.
    Senator Boozman. Mr. Censky?
    Mr. Censky. I believe Mr. McKinney said it well. I have had 
the opportunity as well to view through the years, both as the 
head of the Foreign Agricultural Service and then in my 
capacity working with the American Soybean Association, and 
partnering with the USA Rice Federation and other groups, to 
really see the benefits of these programs and look forward, if 
confirmed, to working along with Mr. McKinney, with Secretary 
Perdue, to make sure that we have adequate funding for the 
programs at appropriate levels, working within the 
administration, and making sure that we are carrying out the 
programs at the levels as authorized by Congress.
    Senator Boozman. Very good. I thank both of you for being 
here, and thank you for your willingness to serve.
    Thank you, Mr. Chairman.
    Chairman Roberts. I appreciate that.
    That will conclude our hearing today. I thank the nominees 
for taking time to address this Committee, to answer this 
Committee's questions. Obviously, both of you have tremendous 
expertise back in the past. I thought Senator Frank Carlson 
wrote the P.L. 480 program, assisted by Don Paarlberg, of 
course.
    Today's nominees' testimony provided us significant 
information and a solid basis upon which to report them 
favorably out of Committee. Per our rules, we cannot do so 
today, but we will endeavor to do so in the very near future. I 
suspect this will be off the floor. To that end, I would 
request that if my fellow members have any additional questions 
from the Committee, they be submitted to the Committee clerk by 
5 o'clock tomorrow, September 20. We look forward to receiving 
your responses and to further considering your nominations.
    The Committee stands adjourned.
    [Whereupon, at 10:47 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           SEPTEMBER 19, 2017



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           SEPTEMBER 19, 2017



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                           SEPTEMBER 19, 2017



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


				[all]

</pre></body></html>
